CERTIFICATE OF SERVICE
I, Petitioner, Matthew Lee Staszak, Certify that a true and correct copy of
the foregoing Petition For A Writ of Certiorari, and Appendices A-l through
A-4 was sent via Fed X on this

1st

day of

2021, affixed to address 1 of the Supreme Court, and sent via U.S. Postal in a
courtesy copy to address 2 Solicitor General.
Supreme Court of the United States
Clerk of the Court
1 First Street, N.E.,
Washington, D.C. 20543-0001
"LEGAL MAIL"
Solicitor General
United States Department of Justice 950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

MftTTHEW L. S1ASZAK
Rig #24227-171
Federal Correction Complex
P.O. Box 9000-LOW
Forrest City, AR 72336-9000

